U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 24, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Park Properties Associates, L.P., et al. v. United States of America,
S.CtNo. 19-268

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 28,
2019, and placed on the docket on August 29, 2019. The government's response is due on
September 30, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 30, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0268
PARK PROPERTIES ASSOCIATES, L.P., ET AL.
USA

JENNIFER ARONOFF
MCDERMOTT WILL & EMERY LLP
444 WEST LAKE STREET
CHICAGO, IL 60606
312-984-7747
THOMAS A. GENTILE
WILSON ELSER MOSKOWITZ EDELMAN &
DICKER LLP
FLORHAM PARK, NJ 07932
973-624-0800
MICHAEL B. KIMBERLY
MCDERMOTT WILL & EMERY LLP
500 NORTH CAPITOL STREET, NW
WASHINGTON, DC 20001
202-756-8000
MKIMBERLY@MWE.COM
MATTHEW L. KNOWLES
MCDERMOTT WILL & EMERY LLP
28 STATE STREET
BOSTON, MA 02109
617-535-3885
MKNOWLES@MWE.COM

